 

I
sume (C'QCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 L ega l B tl e fs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-221
MICHELLE VALENT,
Petitioner,
Vv.

ANDREW M. SAUL,
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE SOUTHEASTERN LEGAL FOUNDATION IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3878 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 19th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ; ‘
State of Nebraska . LG ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant

 

38624
